No.
IN THE SUPREME COURT OF THE UNITED STATES

Joseph Peter Garbarini,
Petitioner
v.
Lorie Davis,
Respondent

ON PETITION FOR WRIT OF CERTIORARI TO
THE FIFTH CIRCUIT COURT OF APPEALS

APPENDIX TO THE PETITION

Joseph Peter Garbarini
TDCJ #1754849
McConnell Unit
3001 S. Emily
Beeville, TX 78102

i ■

APPENDIX TABLE OF CONTENTS
Appendix Table of Contents

.

.

.

.

.

.

Report and Recommendation of United States Magistrate Judge
Order of the District Court

......

i
la
29a

Order of the Court of Appeals denying a COA

30a

Order of the Court of Appeals dn rehearing

33a

i

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 1 of 28

IN' THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
JOSEPH PETER GARBARINI, m, #1754849

§

VS.

§

DIRECTOR, TDCJ-CED

§

CIVIL ACTION NO. 4:16cvl98

REPORT AND RECOMMENDATION
OF UNITED STATES MAGISTRATE JUDGE
Petitioner Joseph Peter Garbarini, HI, an inmate confined in the Texas prison system,
proceeding pro se, filed this petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The
petition was referred for findings of fact, conclusions of law and recommendations for the disposition
of the case.
Procedural Background of the Case
Petitioner is challenging his Collin County convictions for continuous sexual abuse of a young
child and sexual performance by a child, Cause Number 296-80759-2011. On October 20,2011, after
a jury trial, Petitioner was sentenced to 52 years of imprisonment for continuous sexual abuse of a
young child and 10 years of imprisonment for sexual performance by a child, with the sentences
running consecutively. The conviction was affirmed. Garbarini v. State, No. 05-12-00029-CR, 2013
WL 3947154 (Tex. App. - Dallas July 29, 2013, pet. ref d). The Texas Court of Criminal Appeals
refused his petition for discretionary review on January 15,2014. He did not file a petition for a writ
of certiorari.
Petitioner filed an application for a writ of habeas corpus in state court on February 15,2015.
Petitioner’s trial counsel, Theodore Paul Steinlce, Jr., filed an affidavit in response to allegations of
ineffective assistance of counsel. SHCR at 204-214.1 The trial court issued findings of fact and

i«

SHCR” refers to the Clerk’s Record of pleadings and documents filed with the trial court during the State habeas
corpus proceedings.

1

lc\

"Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 2 of 28

conclusions of law on September 2, 2015. Id. at 251-66. On February 24, 2016, the Texas Court of
Criminal Appeals denied the application without written order on findings of the trial court without
a hearing.

i

The present petition was filed on March 21,2016. The petition contains the following grounds
for relief:
1.

Petitioner received multiple punishments for a single offense, a double jeopardy
violation;

2.

Petitioner’s due process rights were violated by a jury charge that allowed a nonunanimous verdict;

3.

Petitioner received ineffective assistance of counsel;

4.

Petitioner was denied due process when alterations were made to the Discovery
Agreement after he had signed it; and

5.

Petitioner was denied due process when the prosecution made improper statements to
the jury during closing arguments.

Petitioner also submitted a memorandum of law in support of the petition. The Director has filed an
answer (Dkt. #22). Petitioner has filed a traverse in reply (Dkt. #27).
Facts of the Case
The Fifth Court of Appeals discussed the facts of the case as follows:
[Petitioner] was a kindergarten teacher in the Plano Independent School District. The
grand jury alleged, in a two-count indictment, that [Petitioner] committed the offenses
of continuous sexual abuse of a child and sexual performance by a child. The victims
of the offenses were two of [Petitioner’s] female kindergarten students.
At trial, the State presented evidence that at the end of the 2009-10 school year, on
May 19, 2010, S.T. made an outcry [Petitioner] had improperly touched her during a
game they played called the mommy/baby game. The improper touching occurred
when [Petitioner] was pretending to change S.T.’s diaper. S.T. was interviewed the
day of her outcry at the Child Advocacy Center. A videotape of her interview was
admitted into evidence. During her interview, S.T. stated that [Petitioner] “plays
house” with her and pretends to change her diaper. She said [Petitioner] would put his
hand inside her pants, but not inside her panties, when he was pretending to wipe her.
She said [Petitioner] had done this a “bunch of times,” and more than five times. She
said sometimes [Petitioner] touched her “privacy bone” so hard that it hurt.
When [Petitioner] was confronted with S.T.’s allegations, he immediately resigned.
After his resignation, the other kindergarteners in his class, including M.P., were
interviewed about [Petitioner], M.P. initially denied any inappropriate behavior.
However, the evening after she was first interviewed, M.P. told her mother that she had
not told tibe truth about [Petitioner] and the “baby game” and that [Petitioner] had
2

JLo~

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 3 of 28

touched her inappropriately. M.P. told her mother that [Petitioner] had started touching
her after Christmas and that it happened “a lot ... almost every day.” M.P. was
subsequently interviewed again at the Child Advocacy Center. M.P. ’s interview was
recorded and admitted into evidence. In her interview, M.P. stated [Petitioner] would
pick them up and “grab on” their “wrong spot... where you pee.” She said he used his
hand. M.P. displayed how [Petitioner] touched her and others with his hand and
fingers. She said it happened more than five times.
Police subsequently obtained a search warrant of [Petitioner’s] residence and
discovered numerous items of evidence establishing that [Petitioner] has an infantilism
fetish, and particularly a fetish about diapers. Police found thousands of diapers made
for adults with such fetishes, both clean and soiled, throughout his residence.
[Petitioner] also had a cage in the residence where he would lock himself up as part of
a sex game that included wearing diapers. The only bed in the house was a toddler
princess bed with bondage restraints on each comer where [Petitioner] would restrain
himself with a time lock. A videotape [Petitioner] took of himself playing this “game”
showed him lying on the toddler bed in diapers.
[Petitioner’s] defense at trial was he did not touch the children, he was not a pedophile,
and his sexual disorders did not involve children. The jury nevertheless found
[Petitioner] guilty of continuous sexual abuse and sexual performance by a child.
Garbarini, 2013 WL 3947154 at *1-2.
Failure to Exhaust
The Director initially argues that the first, second and fifth grounds for relief should be
dismissed for failure to exhaust. Stated differently, Petitioner failed to present his double jeopardy,
non-unanimous verdict jury charge, and prosecutorial misconduct claims to the Texas Court of
Criminal Appeals. In response, Petitioner argues that he presented the exact same points of error in
his State application for a writ of habeas corpus, except for a few minor word changes. He observes
that he presented the grounds for relief in grounds one, two and sixteen of his State application,
although he added a claim of ineffective assistance of counsel with respect to the claims. He argues
that the Director is fixated on the additional verbiage.
A state prisoner must exhaust all remedies available in state court before proceeding in federal
court unless there is an absence of an available state corrective process or circumstances exist which
render the state corrective process ineffective to protect the prisoner’s rights. 28 U.S.C. § 2254(b).
In order to exhaust properly, he must “fairly present” all of his claims to the state court. Picard v.
Connor, 404 U.S. 270 (1981). In Texas, all claims must be presented to and ruled on by the Texas

3

3 o—

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 4 of 28

Court of Criminal Appeals. Richardson v. Procunier, 762 F.2d 429, 431-32 (5th Cir. 1985); Tipton
v. Thaler, 354 F. App’x. 138, 140 n.l (5th Cir. 2009).
In the present case, Petitioner presented his claims to the Texas Court of Criminal Appeals,
although the claims as presented in his state application included additional ineffective assistance of
counsel verbiage. The Director correctly observed that the appropriate inquiry is whether the claims
as presented in federal court “in a significantly different and stronger evidentiary posture than it was
before the state courts.” Dowthitt v. Johnson, 230 F.3d 733, 746 (5th Cir. 2000) (citations omitted).
Petitioner’s claims were presented in the State application, discussed by the trial court, and rejected
by the Texas Court of Criminal Appeals. Petitioner sufficiently exhausted his claims. If anything, his
presentation in the present petition diluted his claims, as opposed to presenting them in a significantly
different and stronger evidentiary posture. The failure to exhaust argument is understandable in light
of the changes made in the present petition, but it ultimately lacks merit.
Standard of Review
The focus of the remainder of the Report and Recommendation is on the merits of Petitioner’s
claims. The role of federal courts in reviewing habeas corpus petitions by prisoners in state custody
is exceedingly narrow. A person seeking federal habeas corpus review must assert a violation of a
federal constitutional right. Lowery v. Collins, 988 F.2d 1364, 1367 (5th Cir. 1993). Federal habeas
corpus relief will not issue to correct errors of state constitutional, statutory, or procedural law, unless
a federal issue is also present. Estelle v. McGuire, 502 U.S. 62, 67-68 (1991); West v. Johnson, 92
F.3d 1385, 1404 (5th Cir. 1996). In the course of reviewing state proceedings, a federal court does
“not sit as a super state supreme court to review error under state law.” Wood v. Quarterman, 503
F.3d 408,414 (5th Cir. 2007) (citations omitted); Porter v. Estelle, 709 F.2d 944,957 (5th Cir. 1983).
The petition was filed in 2016, thus review is governed by the Antiterrorism and Effective
Death Penalty Act (“AEDPA”). See Lindh v. Murphy, 521 U.S. 320, 327 (1997). Under AEDPA, a
petitioner who is in custody “pursuant to the judgment of a State court” is not entitled to federal habeas
corpus relief with respect to any claim that was adjudicated on the merits in State court proceedings
unless the adjudication of the claim 4

H

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 5 of 28

(1)

resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established federal law, as determined by the Supreme Court of the United
States; or

(2)

resulted in a decision that was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceedings.

28 U.S.C. § 2254(d). “By its terms § 2254 bars relitigation of any claim ‘adjudicated on the merits’
in state court, subject only to the exceptions in §§ 2254(d)(1) and (d)(2).” Harrington v. Richter, 562
U.S. 86,98 (2011). AEDPA imposes a “highly deferential standard for evaluating state-court rulings,
and demands that state-court decisions be given the benefit of the doubt.” Renico v. Lett, 559 U.S.
766, 773 (2010) (citation and internal quotation marks omitted). With respect to the first provision,
a “state court decision is ‘contrary to’ clearly established federal law if (1) the state court ‘applies a
rule that contradicts the governing law’ announced in Supreme Court cases, or (2) the state court
decides a case differently than the Supreme Court did on a set of materially indistinguishable facts.”
Nelson v. Quarterman, 472 F.3d 287,292 (5th Cir. 2006) (enbanc) (quotingMitchell v. Esparza, 540
U.S. 12,15-16(2003)). “[Rjeview under § 2254(d)(1) is limited to the record that was before the state
court that adjudicated the claim on the merits.” Cullen v. Pinholster, 563 U.S. 170, 180-81 (2011).
As such, “evidence later introduced in federal court is irrelevant.” Id. at 184. “The same rule
necessarily applies to a federal court’s review of purely factual determinations under § 2254(d)(2), as
all nine Justices acknowledged.” Blue v. Thaler, 665 F.3d 647, 656 (5th Cir. 2011). With respect to
§ 2254(d)(2), a Texas court’s factual findings are presumed to be sound unless a petitioner rebuts the
“presumption of correctness by clear and convincing evidence.” Miller-El v. Dretke, 545 U.S. 231,240
(2005) (citing § 2254(e)(1)). The “standard is demanding but not insatiable;... [djeference does not
by definition preclude relief.” Id. (citation and internal quotation marks omitted). More recently, the
Supreme Court held that a “state court’s determination that a claim lacks merit precludes federal
habeas relief so long as ‘fairminded jurists could disagree’ on the correctness of the state court’s
decision.” Richter, 562 U.S. at 101 (citation omitted). The Supreme Court has explained that the
provisions of AEDPA “modified a federal habeas court’s role in reviewing state prisoner applications
in order to prevent federal habeas ‘retrials’ and to ensure that state-court convictions are given effect
5

So.

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 6 of 28

to the extent possible under law.” Bell v. Cone, 535 U.S. 685, 693 (2002). Federal habeas corpus
relief is not available just because a state court decision may have been incorrect; instead, a petitioner
must show that a state court decision was unreasonable. Id. at 694.
Discussion and Analysis
1.

Petitioner’s claim that he received multiple punishments for a single offense, a double j eopardy
violation
Petitioner notes that the State alleged that he committed acts of sexual misconduct against S.T.

and M.P. from January 1, 2010 through May 19, 2010. He argues that the second count of sexual
performance of a child is included in the first count of continuous sexual abuse, of a young child.
The double jeopardy bar protects against a second prosecution after acquittal, against a second
prosecution for the same offense after conviction and against multiple punishments for the same
offense. Ohio v. Johnson, 467 U.S. 493, 498 (1984); US. v. Nichols, 741 F.2d 767 (5th Cir. 1984),
cert, denied, 469 U.S. 1214 (1984). The most common question for the Court’s consideration when
there are two convictions out of the same incident is whether the two convictions represent multiple
punishments for the same offense. The test to be applied to determine whether there are two offenses
or only one is whether each provision requires proof of an additional fact which the other does not.
Blockburger v. United States, 284 U.S. 299, 304 (1932); United States v. Marden, 872 F.2d 123,126
(5th Cir. 1989).
In the present case, trial counsel fully explained why there is no double jeopardy violation:
15.

I did not obj ect to count two (2) of the indictment on the grounds of double j eopardy,
as I did not believe that it was.

16.

Count one (1) of the indictment alleged “continuous sexual abuse of a child” under
Section 21.02 of the Penal Code, and count two (2) alleged “sexual performance of a
child” under Section 43.25 of the Penal Code. They are two completely different
offenses with different elements of proof. In my opinion, double jeopardy did not
apply, and I am not in the habit of filing motions that I believe to be frivolous and not
in good faith.
In addition, the Writ Application states that count two (2) was a lesser included offense
under Section 21.02. However, the offense of “sexual performance of a child” is
simply one of the possible predicate offenses of “continuous sexual abuse of a child,”
and it was not used as such in count one (1) of the indictment. As a result, double
jeopardy was not an issue.
6

G cl

‘Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 7 of 28

SHCR at 207. The explanation provided by counsel sufficiently explained why there was no double
j eopardy violation in this case - the two offenses have different elements ofproof. Each requires proof
of an additional fact which the other does not. Petitioner’s double jeopardy claim lacks merit.
Petitioner’s claim that his due process rights were violated by a jury charge that allowed a nonunanimous verdict

2.

Petitioner next alleges that his due process rights were violated by a jury charge that allowed
a non-unanimous verdict. He explains that the jury charge lists two victims, S.T. and M.P., using the
disjunctive phrase “and/or” and it was possible for the jury to convict without unanimous agreement
on who was a victim. In his memorandum, Petitioner observed that the prosecutor stated during
closing arguments that “[a]s long as you each agree that there are two acts, it doesn’t matter which
child. As long as there are two acts 30 days or more apart, then we have proven that part of our case.”
8 RR 12.2
Counsel appropriately discussed Petitioner’s faulty reasoning as follows:
17.

I did not object to the Jury charge listing both victims as “and/or.”

18.

First of all, the charge tracked the language of the indictment. Second, as stated in the
charge, the jury would have been justified in returning a verdict of guilty if they
believed that [Petitioner] committed two (2) acts against either S.T. or M.P., or both,
so the “and/or” language was appropriate.

The jury had to unanimously find that Petitioner committed two acts as long as they were 30 days or
more apart. Petitioner’s assertion that he somehow could have been convicted on less than a
unanimous verdict lacks merit.
Petitioner’s claim that he received ineffective assistance of counsel

3.

Ineffective assistance of counsel claims are governed by the Supreme Court’s standard
established in Strickland v. Washington, 466 U.S. 668 (1984). Strickland provides a two-pronged
standard, and the petitioner bears the burden ofproving both prongs. Id. at 687. Under the first prong,
he must show that counsel’s performance was deficient. Id. To establish deficient performance, he
must show that “counsel’s representation fell below an objective standard of.reasonableness,” with
2«

RR” refers to the court reporter’s record of the transcribed testimony during the trial, preceded by the volume
number and followed by the page number.
7

7*.

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 8 of 28

reasonableness judged under professional norms prevailing at the time counsel rendered assistance.
Id. at 688. The standard requires thereviewing court to give great deference to counsel’s performance,
strongly presuming counsel exercised reasonable professional judgment. Id. at 690. Under the second
prong, the petitioner must show that his attorney’s deficient performance resulted in actual prejudice.
Id. at 687. To satisfy the prejudice prong, the habeas petitioner “must show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have been
different. A reasonable probability is a probability sufficient to undermine confidence in the outcome.”
Id. at 694. An ineffective assistance of counsel claim fails if a petitioner cannot satisfy either the
;deficient performance or prejudice prong; a court need not evaluate both if he makes an insufficient
showing as to either. Id. at 697.
In the context of § 2254(d), the deferential standard that must be accorded to counsel’s
representation must also be considered in tandem with the deference that must be accorded state court
decisions, which has been referred to as “doubly” deferential. Harrington v. Richter, 562U.S. 86,105
(2011). “When § 2254(d) applies, the question is not whether counsel’s actions were reasonable. The
question is whether there is any reasonable argument that counsel satisfied Strickland's deferential
standard.” Id. “If the standard is difficult to meet, that is because it was meant to be.” Id. at 102.
Also see Morales v. Thaler, 714 F.3d 295, 302 (5th Cir. 2013).
a.

Petitioner’s claim that his counsel was ineffective by not requesting the mandatory
hearing to designate outcry witnesses

b.

Petitioner’s claim that his counsel was ineffective by not objecting to hearsay
testimony

Petitioner observes that several witnesses gave hearsay testimony regarding the statements
allegedly made by S.T. and M.P. In the first ineffective assistance of counsel claim, Petitioner
observes that Clarissa Turner, the mother of S.T., reported to Detective Kyle Kucauskas that she had
a dream that her child had been molested. 5 RR 44. Principal Linda Engelking testified the mother
told her she had seen S.T. “standing naked in front of her brother and she was touching herself.” 3 RR
215-16. S.T.’s mother also testified that her daughter told her “Mr. Garbarini has touched my puff,”
and she told me about the games they were playing in the classroom. 5 RR 24.
8

8 (K

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 9 of 28

In the second ineffective assistance of counsel claim, Petitioner argues that his attorney was
ineffective for failing to object to hearsay testimony by Clarissa Turner and Linda Engelking. They
testified about a time in January 2010 when there was a mention of a “tickling” incident. Ms. Turner
testified she heard from S.T.’s grandmother that S.T. had said something about tickling her thigh.
5 RR 17-18. Ms. Engelking gave similar testimony, only she heard it from teacher Michele Allen
who had heard it from the grandmother. 3 RR 206.
Counsel provided the following reason for not objecting to the testimony:
19.

I did not request a hearing to designate outcry witnesses.

20.

I had been informed by the prosecution that Clarissa Turner (S.T.’s mother) was the
outcry witness for S.T., and Robyn Miller (M.P.’s mother) was the outcry witness for
M.P.

21.

I did not object to the testimony of Linda Engelking, Robyn Miller, or Clarissa Turner
as improper outcry witnesses.

22.

Robyn Miller and Clarissa Turner were proper outcry witnesses. I allowed Linda
Engelking, the school principal, to testify, about what M.P. told her because it was
different than what M.P had told her mother. I thought that would be important for the
jury to hear.

23.

I did not object to the testimony of Linda Engelking, Robyn Miller, or Clarissa Turner
as improper hearsay, when testifying about information the victims told them.

24.

Same answer as No. 22. In addition, the Writ Application on page 9 states that “the
statements of S.T. and M.P. were not reliable.” That is exactly what I was trying to
demonstrate. Each time the complainants told their story, the facts changed a little.
The only way to point that out was to get each version in front of the jury. And bear
in mind, one (1) of my two (2) defensive theories was that the complainants were not
credible, and the more versions of what their stories were, the better chance I had of
showing that to the jury.

SHCR at 206-7.
After considering all of the evidence, including counsel’s affidavit, the trial court made the
following findings on this issue:
15)

The State informed counsel of who the outcry witnesses were prior to trial;

16)

Counsel acknowledges that both ofthe victims ’ mothers were proper outcry witnesses;

17)

Counsel did not obj ect to Linda Engelking’s testimony about what one the victims told
her because what die victim told her differed from what she told her mother;

9

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 10 of 28

18)

One of [Petitioner’s] defensive theories was that the victims were not truthful;

19)

Counsel wanted the jury to hear that the victim had given Engelking a different story
than she gave to her mother;

20)

Counsel had a valid legal strategy for not objecting to the testimony or requesting a
hearing;

21)

[Petitioner] has not shown by a preponderance of the evidence that counsel’s failure
to object or request a hearing was deficient;

22)

Engelking’s testimony supported a defensive theory;

23)

Any objections to the victims’ mothers’ testimony would have been overruled;

24)

[Petitioner] has not shown by a preponderance of the evidence that the outcome of the
trial would have been different had counsel objected to the mothers’ or Engelking’s
testimonies or requested a hearing.

SHCR at 253-54. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
Petitioner argues that his attorney was ineffective because he failed to demand a hearing under
Article 38.072 of the Texas Code of Criminal Procedure. The Texas Court of Criminal Appeals
discussed Article 38.072 hearings in Sanchez v. State, 354 S.W.3d 476 (Tex. Crim. App. 2011). The
Court noted that hearsay evidence is inadmissible unless it falls into one of the exceptions provided
by the Rules of Evidence or statutory authority. Id. at 484. Article 38.072 is one such exception.
“When a defendant is charged with certain offenses against a child under the age of 14 or a disabled
individual, Article 38.072 allows into evidence the complainant’s out-of-court statement so long as that
statement is a description of the offense and is offered into evidence by the first adult the complainant
told of the offense. Though the terms do not appear in the statute, the victim’s out-of-court statement
is commonly known as an ‘outcry,’ and an adult who testifies about the outcry is commonly known
as an ‘outcry witness. ’” Id. The Court further observed that the statutory provision comports with the
guarantees of the Sixth Amendment because the child declarant is available for cross-examination at
trial. Id. at 486 n.26.

10

0-

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 11 of 28

In the present case, counsel was aware of the outcry witnesses prior to trial, and he found that
they were proper outcry witnesses. The State habeas court likewise found that they were proper outcry
witnesses and objections to the mothers’ testimony would have been overruled. Counsel was not
required to make frivolous or futile motions or objections. Johnson v. Cockrell, 306 F.3d 249, 255
(5th Cir. 2002); Koch v. Puckett, 907 F.2d 524, 527 (5th Cir. 1990).
In addition to the foregoing, counsel developed a strategy of having as many versions of the
children’s stories in front of the jury as possible to show that their stories changed each time they told
it and to show the jury that they were not reliable. The Supreme Court explained in Strickland that
“strategic choices made after thorough investigation of law and facts relevant to plausible options are
virtually , unchallengeable; and strategic choices made after less than complete investigation are
reasonable precisely to the extent that reasonable professional judgments support the limitations on
investigation.” See Strickland, 466 U.S. at 690-91. Federal courts “will not question a counsel’s
reasonable strategic decisions.”Bowerv. Quarterman, 497 F.3d459,470 (5th Cir. 2007), cert, denied,
553 U.S. 1006 (2008). Habeas corpus relief is unavailable if a petitioner fails to overcome the
presumption that counsel made sound strategic decisions. Del Toro v. Quarterman, 498 F.3d 486,491
(5th Cir. 2007), cert, denied, 552 U.S. 1245 (2008). Counsel developed a strategy based on the
evidence, and Petitioner has not overcome the presumption that it was a sound strategy.
Finally, the first two ineffective assistance of counsel claims should be denied because
Petitioner has not shown, as required by 28 U.S.C. § 2254(d), that the State court findings resulted in
a decision that was contrary to, or involved an unreasonable application of, clearly established federal
law as determined by the Supreme Court of the United States, or resulted in a decision that was based
on an unreasonable determination of the facts in light of the evidence presented in the State court
proceedings. Moreover, the ineffective assistance of counsel claims must be rejected because he failed
to overcome the “doubly” deferential standard that must be accorded to counsel’s representation in
tandem with the deference that must be accorded state court decisions under § 2254(d). Richter, 562
U.S. at 105. Relief on Petitioner’s first two ineffective assistance of counsel claims lack merit.

11

/) CL

Case: 4:16-cv-00198-ALM-CAN

c.

Document #: 29-1

Date Filed: 12/06/2018

Page 12 of 28

Petitioner’s claim that counsel provided ineffective assistance by not obi ecting to the
unsworn statement by Benjamin Turner

Petitioner observes that Detective Kucauskas read from an unsworn statement by Benjamin
Turner, S.T.’s father. 7 RR 191. In the statement, Benjamin Turner writes that S.T. said, “Mr.
[Garbarini] touched my puff’ and that it happened “on the first day of school.” Petitioner complains
that Mr. Turner did not testify at trial, was not subject to cross-examination, and did not verify that
the statement was written by him. He stresses that without the statement, the State had no evidence
that any abuse occurred over a period of thirty days or more. Nonetheless, counsel did not object to
the statement.
Counsel provided the following explanation for not objecting to Detective Kucauskas reading
from the statement:
25.

I did not object to the admission of Benjamin Turner’s written statement. In fact, I
introduced it as Defense Exhibit No. 101 during the testimony of Detective Kyle
Kucauska of the Murphy Police Department, whom I called as a witness during the
presentation of the defense case.

26.

I actually addressed the statement during my direct examination of Detective
Kucauska.

27.

I did in fact use the statement to advance one of my defensive theories, to wit, that S.T.
was not a credible witness. Her mother, Clarissa Turner, had testified earlier that S.T.
did NOT talk to her father, Benjamin Turner, about the incidents in question.
However, in an interview with Detective Kucauska, Benjamin said that he DID in fact
question S.T. about her allegations. I thought this was an important point, since Dr.
Gottlieb had testified that the more times a young child was questioned prior to the
forensic interview, the greater the chance that her outcry might be tainted.
The problem was that Benjamin Turner was not available to testify. I argued to the
Court that I had a right to show the jury what S.T. had said to her father. The Court
agreed, and allowed me to introduce the written statement in lieu of Benjamin’s live
testimony. That statement contained S.T.'s allegations, which were different than what
she had told her mother. This was another fact that I believed cast doubt on the
credibility of S.T.

SHCR at 208.
After considering all of the evidence, including counsel’s affidavit, the trial court made the
following findings on this issue:

12

JZo^

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 13 of 28

25)

Counsel wanted to use Benjamin Turner’s statement because he believed it
contradicted S.T.’s mother's testimony and because it supported the testimony of the
defense expert;

26)

Counsel is mistaken that regarding which party offered the statement into evidence;

27)

This mistake does not affect the credibility of counsel’s statements that he believed
Turner’s statements were necessary to support defensive theories in this case;

28)

[Petitioner] has not shown by a preponderance of the evidence that counsel was
ineffective for failing to object to Turner’s statement;

29)

There was evidence of [Petitioner’s] guilt other than Turner’s statement;

3 0)

[Petitioner] has not shown by a preponderance of the evidence that the outcome of the
trial would have been different had counsel objected to Turner’s statement.

SHCR at 254-55. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
As with the two previous ineffective assistance of counsel claims, counsel wanted the evidence
presented to the jury. Again, he developed a strategy of having as many versions of the children’s
stories in front of the jury as possible to show that their stories changed each time they told it and to
show the jury that they were not reliable. As with the previous two ineffective assistance of counsel
claims, Petitioner failed to overcome the presumption that counsel made a sound strategic decision.
Finally, the ineffective assistance of counsel claim should be denied because Petitioner has not
shown, as required by 28 U.S.C. § 2254(d), that the State court findings resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established federal law as determined
by the Supreme Court of the United States, or resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceedings. Moreover,
the ineffective assistance of counsel claim must be rej ected because he failed to overcome the “doubly”
deferential standard that must be accorded to counsel’s representation in tandem with the deference
that must be accorded state court decisions under § 2254(d). Richter, 562 U.S. at 105. Petitioner’s
third ineffective assistance of counsel claim lacks merit.

13

13

Case: 4:16-cv-00198-ALM-CAN

d.

Document #: 29-1

Date Filed: 12/06/2018

Page 14 of 28

Petitioner’s claim that counsel provided ineffective assistance by not obj ecting to the
video interviews of S.T. and M.P.

Petitioner notes that the State showed the jury three video interviews: one of S.T. conducted
by Vanessa Gill on May 19, 2010; one of M.P. conducted by Erica Stanley on May 24, 2010; and
a second one of M.P. conducted by Ms. Gill on May 26,2010. He further notes that Sergeant Gerald
Burke, of the Collin County Rural Child Abuse Task Force, was present at the interview of S.T. He
participated in the interview by suggesting questions for Ms. Gill. 4 RR 197; 6 RR 30. Clarissa
Turner testified that she arrived at the Child Advocacy Center with S.T. and waited more than an
hour for the interview to begin. 5 RR 50. The video of this interview did not begin until five hours
later, and Ms. Turner testified that she and S.T. “were there for a long time.” 5 RR 51. Vanessa Gill
testified that she hoped her questions would validate in the minds of each child that they were
victims of abuse. 4 RR 193-94.
Petitioner observes that the legislature created Tex. Code Crim Proc. art. 38.071 § 5(a) to
allow a recording of an oral statement of the child victim to be admitted at trial. Before a video can
be admitted, the court must find the following:
1.

No attorney or peace officer was present when the statement was made;

2.

Only one continuous recording of the child was made; and

3.

The statement was not made in response to questioning calculated to lead the child
to make a particular statement.

Tex. Code Crim. Proc. art. 38.071 § 5(a)(l,4,12). Petitioner argues that all three requirements were
violated. More specifically, S.T. was interviewed for five hours before the video began. The
interview was not continuous. A peace officer, Sgt. Burke, was present. He finally asserts that both
interviews were conducted by Ms. Gill, who used questioning calculated to lead the children to make
particular statements. Petitioner argues that his attorney provided ineffective assistance of counsel
by not objecting to the video interviews of S.T. and M.P.

14

IHa.

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 15 of 28

Counsel provided the following reasons for not objecting to the video interviews of S.T. and
M.P.:
28.

I did not object to the admission of the videotaped interviews of the two (2)
complainants.

29/30. M.P. was interviewed twice at the Collin County CAC. During her first recorded
interview, she denied being fondled or touched inappropriately by [Petitioner]. Then,
two (2) days later, she was re-interviewed at the CAC, and told a much different story.
I thought it was important for the jury to see both interviews.
S.T. was also interviewed at the CAC, and I wanted the jury to see this videotape as
well.
Dr. Michael Gottlieb, one of my experts, viewed all three videotapes, and testified that
he was “troubled” by some of the questions and techniques used by Vanessa Gill, the
CAC interviewer. I believed this would, once again, cast doubt on the credibility of
the complainants.
In addition, I did not want the jury to hear from the complainants in the
courtroom. I was worried that, now a couple of years older, they would make better
witnesses than I thought they appeared during the interviews.
And, tactically, I believed that by agreeing to let the jury watch the videotapes, the
State would not. call the complainants to the stand. I was correct. And then, in final
argument, I was able to tell the jury that the State could have called them as
witnesses, but did not do so. This, I argued, denied them the ability to judge the
credibility of the complainants for themselves, instead having to rely on videotapes
more than two (2) year old. I also speculated that the State did not call them to the
stand because their stories might have changed again, and the State did not want the
jury to know that.
I believed then, as I do today, that I made the correct decision in agreeing to let the jury
see the videotapes, in lieu of live testimony from the complainants.
SHCR at 208-09.
After considering all of the evidence, including counsel’s affidavit, the trial court made the
following findings on this issue:
31)

Counsel wanted the jury to see the interviews so that he could argue to the jury that the
victims were not credible;

32)

Counsel wanted the jury to see the interviews because his expert had viewed the
interviews and was troubled by some of the techniques and questions used by the
interviewer;

33)

Counsel believed that by agreeing to let the jury watch the taped interviews, the State
would not call the victims to testify at trial;

34)

The State did not call the victims to testify at trial;
15

15a.

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 16 of 28

35)

Counsel was able to attack the victims’ credibility when they did not testify;

36)

[Petitioner] had a valid strategy for not objecting the videotaped interviews of the
victims;

37)

[Petitioner] has not shown by a preponderance of the evidence that counsel’s failure
to object to the interviews was deficient;

38)

There was evidence of [Petitioner’s] other than the interviews;

3 9)

[Petitioner] has not shown by a preponderance of the evidence that the outcome of the
trial would have been different had counsel objected to the interviews.

SHCR at 255-56. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
As with the three previous ineffective assistance of counsel claims, counsel wanted the
evidence presented to the jury. Again, he developed a strategy of having as many versions of the
children’s stories in front of the jury as possible to show that their stories changed each time they told
it and to show the jury that they were not reliable. As with the previous three ineffective assistance
of counsel claims, Petitioner failed to overcome the presumption that counsel made a sound strategic
decision.
Finally, the ineffective assistance of counsel claim should be denied because Petitioner has not
shown, as required by 28 U.S.C. § 2254(d), that the State court findings resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established federal law as determined
by the Supreme Court of the United States, or resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceedings. Moreover,
the ineffective assistance of counsel claim must be rejected because he failed to overcome the “doubly”
deferential standard that must be accorded to counsel’s representation in tandem with the deference
that must be accorded state court decisions under § 2254(d). Richter, 562 U.S. at 105. Petitioner’s
fourth ineffective assistance of counsel claim lacks merit.
e.

Petitioner’s claim that counsel provided ineffective assistance by not objecting to the
irrelevant testimony

Petitioner notes that Linda Engelking, Michele Allen, Leslie Hendrix, and Jennifer Dahl gave
testimony relating to several “acts” involving students other than S.T. and M.P. They were asked
16

I

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 17 of 28

about a bag in Petitioner’s classroom which contained a change of clothes for students (3 RR 25-28,
109-10, 112-13, 164-65), about the time he held the hand of a student (3 RR 23, 107, 138, 185, 208),
about when he had a student sitting on his lap (3 RR. 24, 106,133,138, 156-59,210), about when he
took pictures of the students for the yearbook (3 RR 10,132,136), and other incidental contacts with
children (3 RR 211). Petitioner stresses that none of these acts describe any incidents involving S.T.
and M.P. He argues that his attorney was ineffective by not objecting to this irrelevant testimony.
Counsel provided the following reasons for not objecting to the testimony:
43.

No, I did not object to testimony concerning [Petitioner’s] other physical and non­
physical contact with his students.

44.

I wanted the jury to see that contact with his students was common, and not out-of-theordinary and suspicious, as the State was trying to infer.

Holding Hands: Even though teacher Michelle Allen testified that it was inappropriate for male
teachers to hold the hands of their female students, Allen testified on cross that SHE would
hold the hands of male students, thus creating a double standard that I wanted the jury to note.
And Principal Linda Engleking testified on cross that it was “common” for [Petitioner] to walk
on the playground holding hands with his students, and it was “not at all” inappropriate. By
allowing this testimony, 1 wanted the jury to get comfortable with the idea that [Petitioner’s]
physical contact was appropriate and non-sexual.
Sitting in his Lap: Again, I wanted the jury to get comfortable with the idea that physical
contact with his students was the “norm”, and not the exception. And I got Linda Engleking
to admit on cross that “lots of kids” sat on her lap, and that there was nothing wrong or
inappropriate about that.
Yearbook Photographs: Because of what Jennifer Edwards wrote in her statement that was
incorporated into the search warrant affidavit (that officers would most likely find photos of
young children in [Petitioner’s] residence), I wanted to establish that had any photos been
found, it was because [Petitioner] took them for school purposes. And I got Michelle Allen
to admit on cross that [Petitioner] was a professional photographer on the side, whose services
were used by teachers and parents alike. I wanted the jury to understand that there was nothing
wrong with [Petitioner] taking photos of the girls.
Contact in General: Just as with the sitting in the lap and holding of hands, I wanted the jury
to get comfortable with the idea that physical contact with his students was the “norm”, and
not the exception.
Teaching Non-Verbal Children: I honestly do not remember this testimony, but I would have
to assume that I wanted it in to once again get the jury comfortable with the idea that
[Petitioner’s] physical contact with his students was not inappropriate.
45.

Yes, as noted in 44 above, 1 did cross-examine witnesses about this contact.

17

/7ql

Case: 4:16-cv-00198-ALM-CAN

46.

Document #: 29-1

Date Filed: 12/06/2018

Page 18 of 28

As noted in above, my theory was that any physical contact that [Petitioner] might have
had with M.P. and S.T. was completely appropriate, and that in general, physical
contact with his students was the norm, and not the exception.

SHCR at 210-11.
After considering all of the evidence, including counsel’s affidavit, the trial court made the
following findings on this issue:
56)

Counsel did not object to evidence that [Petitioner] held hands with a student, had a
student sit on his lap, photographed children for the yearbook, and had previously
taught non-verbal children because he wanted the jury to see that [Petitioner’s] contact
with children was common and not suspicious;

57)

In some portions of his affidavit responding to [Petitioner’s] ground for relief, counsel
confuses the facts, such as which party was asking questions, whether certain
testimony was elicited, and which witness gave specific testimony;

58)

None of counsel’s confusion affects the credibility of his assertions that evidence of
[Petitioner’s] contact with other children supported a defensive theory;

59)

Counsel had a valid strategy for not objecting to the testimony;

60)

[Petitioner] has not shown by a preponderance of the evidence that counsel was
deficient for failing to object to evidence of his contact with other children;

61)

There was strong evidence of [Petitioner’s] guilt in this case;

62)

[Petitioner] has not shown by a preponderance of the evidence that he would not have
been convicted had counsel objected to the admission of evidence of [Petitioner’s]
contact with other children;

SHCR at 258-59. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
As with the four previous ineffective assistance of counsel claims, counsel wanted the evidence
presented to the jury. Again, he developed a strategy of wanting the jury to see that Petitioner’s
behavior was normal and not inappropriate. As with the previous four ineffective assistance of counsel
claims, Petitioner failed to overcome the presumption that counsel made sound strategic decisions.
Finally, the ineffective assistance of counsel claim should be denied because Petitioner has not
shown, as required by 28 U.S.C. § 2254(d), that the State court findings resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established federal law as determined
by the Supreme Court of the United States, or resulted in a decision that was based on an unreasonable
18

A?*.

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 19 of 28

determination of the facts in light of the evidence presented in the State court proceedings. Moreover,
the ineffective assistance of counsel claim must be rej ected because he failed to overcome the “doubly”
deferential standard that must be accorded to counsel’s representation in tandem with the deference
that must be accorded state court decisions under § 2254(d). Richter, 562 U.S. at 105. Petitioner’s
fifth ineffective assistance of counsel claims should be rejected.
f.

Petitioner’s claim that counsel provided ineffective assistance by not 'objecting to
evidence regarding acts involving BDSM

g-

Petitioner’s claim that counsel provided ineffective assistance by not requiring a single
limiting instruction

Petitioner complains that the State introduced several pieces of evidence and testimony
detailing his interest in BDSM - bondage restraints, ball-gags, adult sex toys, a cage, etc. 4 RR14,21,
25-35, 39-40. The State also described in graphic detail the websites owned by the BDSM oriented
company Kink.com. 7 RR 146-49. Petitioner stresses that the BDSM had absolutely nothing to do
with the charges and was completely irrelevant. He argues that counsel was ineffective by not
objecting to the evidence regarding acts involving BDSM. He further argues that counsel was
ineffective by not asking for a limiting instruction with respect to the evidence.
Counsel provided the following reasons for not objecting to the testimony:
47.

No, I did not object to the introduction of the “plethora of evidence” regarding
[Petitioner’s] sexual obsessions.

48.

One of my defensive theories was that “while [Petitioner] had a number of serious
sexual issues, pedophilia was not one of them,” so I made the tactical decision NOT
to challenge the evidence in front of the jury, because every single item corroborated
that theme. In addition, there was absolutely no evidence of child pornography found
during the search, even though an affidavit attached to the probable cause affidavit
predicted that it would be. I thought this would be important to the jury, and my fear
was that if I objected to the items that I was, in essence, relying on, the jury would
believe me to be disingenuous. So I did not object to them. Specifically:
[Petitioner’s] Interest in BDSM and Infantilism: this corroborated my theory.
Bag of Clothes: I wanted to establish that there was a legitimate purpose for the bag of
clothes in [Petitioner’s] classroom, and that it had nothing to do with the allegations
of S.T and M.P.
Web Searches: I believed that the web searches for “pedophile” and “child
molestation” were going to be admitted by the Court, so rather than object and draw
19

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 20 of 28

attention to it, I decided to try to explain it. In fact, I did so during cross examination
testimony related to a movie that [Petitioner] had ordered.
Computer Game: Once again, this corroborated my defensive theory, and I was able
to establish on cross that it had NOTHING to do with pedophilia. It had everything
to do with [Petitioner’s] adult fetishes.
Websites: Like everything else, this corroborated my defensive theory, since every one
of the websites he visited were related to ADULT pom.
Anime: Since the State’s position was that the anime WAS child pornography, I
wanted to establish that it legally was not, thereby undermining the State’s case. So
I did not object to it. And as I thought, Chris Meehan testified that it did not satisfy the
legal definition of child pornography.
49.

Yes, I did cross examine several witnesses about this evidence during the trial,
including Chris Meehan and Gerald Burk.

50.

My theory on cross examination was that these items corroborated my defensive theory
that “while [Petitioner] had a number of serious sexual issues, pedophilia was not one
of them.”

51.

I did not request a limiting instruction on any of the evidence.

52.

I intended to argue (and did so) that those items corroborated [Petitioner ’ s] adult sexual
fetishes and obsessions, and I wanted the ability to do so without running afoul of those
instructions. I also wanted the ability to argue that NOTHING found on his computers
was illegal, which is why I wanted the jury to know about all of it.

SHCR at 211-12.
After considering all of the evidence, including counsel’s affidavit, the trial court made the
following findings on this issue:
63)

One ofthe main defensive theories was that while [Petitioner] had sexual fetishes, none
of his sexual behavior was illegal or involved children;

64)

Counsel did not object to the admission of evidence regarding [Petitioner’s] interest
in bondage and infantalism, a bag of children’s clothing from [Petitioner ’ s] classroom,
web searches, computer games, adult pornography, and computer anime because he
feared if he objected to them, he would lose the jury's confidence in his argument that
[Petitioner’s]s sexual fetishes were not illegal and were adult;

65)

Counsel had a valid legal strategy for not objecting to the admission of evidence
regarding [Petitioner’s] interest in bondage and infantalism, a bag of children’s
clothing from [Petitioner’s] classroom, web searches, computer games, adult
pornography, and computer anime;

66)

[Petitioner] has not shown by a preponderance of the evidence that trial counsel was
deficient for failing to object to evidence regarding [Petitioner’s] interest in bondage
and infantalism, a bag of children’s clothing from [Petitioner’s] classroom, web
searches, computer games, adult pornography, and computer anime;
20

ZOcl

Case: 4:16-cv-00198-ALM-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 21 of 28

67)

There was other evidence besides regarding [Petitioner’s] interest in bondage and
infanitalism, a bag of children's clothing from [Petitioner’s] classroom, web searches,
computer games, adult pornography, and computer anime that support [Petitioner’s]
guilt;

68)

[Petitioner] has not shown that the outcome of the trial would have been different had
counsel objected to the admission of evidence regarding [Petitioner’s]s interest in
bondage and infantalism, a bag of children’s clothing from [Petitioner’s] classroom,
web searches,computer games, adult pornography, and computer anime;

69)

Counsel did not request a limiting instruction on the evidence regarding [Petitioner’s]
interest in bondage and infantalism, a bag of children’s clothing from [Petitioner’s]
classroom, web searches, computer games, adult pornography, and computer anime
because he wanted to argue that [Petitioner’s] sexual fetishes were adult in nature and
not illegal;

70)

[Petitioner] had a valid legal strategy for not requesting a limiting instruction on
evidence regarding [Petitioner’s] interest in bondage and infantalism, a bag of
children’s clothing from [Petitioner’s] classroom, web searches, computer games, adult
pornography, and computer anime;

71)

[Petitioner] has not shown by a preponderance of the evidence that counsel was
deficient for failing to request a limiting instruction on evidence regarding
[Petitioner’s] interest in bondage and infantalism, a bag of children’s clothing from
[Petitioner’s] classroom, web searches, computer games, adult pornography, and
computer anime;

72)

There was strong evidence of [Petitioner’s] guilt in this case;

73)

[Petitioner] has not shown by a preponderance of the evidence that the outcome of the
trial would have been different if counsel had requested a bruiting instruction on the
evidence regarding [Petitioner’s] interest in bondage and infantalism, a bag of
children’s clothing from [Petitioner’s] classroom, web searches, computer games, adult
pornography, and computer anime;

SHCR at 259-62. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
As with the five previous ineffective assistance of counsel claims, counsel wanted the evidence
presented to the jury. He developed a strategy that while Petitioner had a number of serious sexual
issues, pedophilia was not one of them, and that Petitioner’s sexual fetishes were adult in nature and
not illegal. Under these circumstances, counsel did not want limiting instructions. As with the
previous five ineffective assistance of counsel claims, Petitioner failed to overcome the presumption
that counsel made sound strategic decisions.

21

A] CL

Case: 4:16-cv-00198~ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 22 of 28

Finally, the ineffective assistance of counsel claims should be denied because Petitioner has
not shown, as required by 28 U.S.C. § 2254(d), that the State court findings resulted in a decision that
was contrary to, or involved an unreasonable application of, clearly established federal law as
determined by the Supreme Court of the United States, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State court
proceedings. Moreover, the ineffective assistance of counsel claim must be rejected because he failed
to overcome the “doubly” deferential standard that must be accorded to counsel’s representation in
tandem with the deference that must be accorded state court decisions under § 2254(d). Richter, 562
U.S. at 105. Petitioner’s sixth and seventh ineffective assistance of counsel claims lack merit.
h.

Petitioner’s claim that counsel provided ineffective assistance by not obtaining the
attendance records of S.T.

Petitioner’s last ineffective assistance of counsel claim is that counsel was ineffective by not
obtaining the attendance records of S.T. He observed that the State gave testimony suggesting S.T.
was abused on May 18, 2010. Petitioner states that he informed counsel that this was impossible
because S.T. was absent on that day. Counsel informed him that he would have the attendance records
admitted into evidence. Instead of getting the records and offering them into evidence, counsel relied
on the State to introduce S.T. ’s attendance records. The records offered by the State did not, however,
include dates prior to May 19, 2010.
Counsel provided the following explanation for not obtaining the attendance records of S.T.:
57.

I did review the attendance records offered by the State prior to their introduction in
evidence.

59.

I did not seek to obtain the records myself.

60.

I did not think they would be relevant, primarily because of the legal concept of “on
or about.” And since neither the children nor their parents could establish any of the
exact dates of the alleged fondling, the records would have had no evidentiary value.

61.

In my opinion, the records would not have supported any defensive claim.

SHCRat213.

22

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 23 of 28

After considering all of the evidence, including counsel’s affidavit, the trial court made the
following findings on this issue:
74)

Counsel did review the State’s copy of the attendance records;

75)

The State had alleged that the offenses occurred on or about a certain date;

76)

The parents and victims could not establish an exact date that the offenses occurred;

77)

Counsel did not seek to obtain his own copy of the attendance records because the
records would not have had an evidentiary value;

78)

Counsel had a valid legal strategy for not obtaining his own copy of the attendance
records;

79)

[Petitioner] has not shown by a preponderance of the evidence that trial counsel was
deficient for not obtaining his own copy of the attendance records;

80)

[Petitioner] has not shown by a preponderance of the evidence that the outcome of the
trial would have been different had counsel obtained his own copy of the attendance
records;

SHCR at 262-63. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
As with the seven previous ineffective assistance of counsel claims, counsel had a valid legal
strategy for not obtaining his own copy of the attendance records. The State alleged that the offenses
occurred on or about a certain date; thus, the specific date was not an issue. The parents could not
establish a specific date. Counsel thus concluded that the records did not have any evidentiary value
under the circumstances. As with the previous seven ineffective assistance of counsel claims,
Petitioner failed to overcome the presumption that counsel made a sound strategic decision. Moreover,
as explained by the State court, Petitioner cannot show prejudice. The claim lacks merit.
Finally, the ineffective assistance of counsel claims should be denied because Petitioner has
not shown, as required by 28 U.S.C. § 2254(d), that the State court findings resulted in a decision that
was contrary to, or involved an unreasonable application of, clearly established federal law as
determined by the Supreme Court of the United States, or resulted in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the State court
proceedings. Moreover, the ineffective assistance of counsel claim must be rejected because he failed
23

Z3*.

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 24 of 28

to overcome the “doubly” deferential standard that must be accorded to counsel’s representation in
tandem with the deference that must be accorded state court decisions under § 2254(d). Richter, 562
U.S. at 105. Petitioner’s eighth ineffective assistance of counsel claims lacks merit.
4.

Petitioner’s claim that he was denied due process when alterations were made to the Discovery
Agreement after he had signed it
Petitioner next argues that he was denied due process when alterations were made to the

Discovery Agreement after he had signed it. He states that after he signed the agreement, an unknown
party added, handwritten in ink, waivers of 38.072, 37.07, and 38.37 of the Texas Code of Criminal
Procedure and § 404(b) of the Texas Rules of Evidence.
The Director persuasively argues that the claim is conclusory. Petitioner has offered nothing
other than conclusory allegations and bald assertions, which are insufficient to support a petition for
a writ of habeas corpus. See Miller v. Johnson, 200 F.3d 274,282 (5th Cir. 2000); Koch, 907 F.2d at
530; Ross v. Estelle, 694 F.2d 1008, 1011 (5th Cir. 1983).
Furthermore, the trial court considered the claim and made the following findings:
95)

[Petitioner] has not alleged how the alleged modification of the discovery documents
prejudiced him or otherwise affected his rights;

96)

[Petitioner] has not alleged facts that, if true, entitle him to relief;

97)

[Petitioner’s] allegation that the discovery documents were modified can be construed
as a violation] of the Texas Code of Criminal Procedure; and

98)

Statutory violations are not cognizable on writ of habeas corpus.

SHCR at 265-66. The Texas Court of Criminal Appeals subsequently denied the application without
written order on findings of the trial court without a hearing.
The ground for relief should be denied for the additional reason that Petitioner has not shown,
as required by 28 U.S.C. § 2254(d), that the State court findings resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established federal law as determined
by the Supreme Court of the United States, or resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceedings. Moreover,
the State court properly found that mere statutory violations are not cognizable on a writ of habeas
24

Case: 4:16-cv-00198-ALM-CAN

corpus.

Document#: 29-1

Date Filed: 12/06/2018

Page 25 of 28

A person seeking federal habeas corpus review must assert a violation of a federal

constitutional right. Lowery, 988 F.2d at 1367. Federal habeas corpus relief will not issue to correct
errors of state constitutional, statutory, or procedural law, unless a federal issue is also present. Estelle,
502 U.S. at 67-68; West, 92 F.3d at 1404. In the course of reviewing state proceedings, a federal court
does “not sit as a super state supreme court to review error under state law.” Wood, 503 F.3d at 414;
Porter, 709 F.2d at 957. Petitioner has not made the requisite showing of a violation of a federal
constitutional right. Petitioner has not shown that he is entitled to relief on this ground for relief.
5.

Petitioner’s claim that he was denied due process when the prosecution made improper
statements to the jury during closing arguments
Petitioner finally complains about statements made by the State during closing arguments. He

stresses that the State made two claims regarding missing evidence, two statements regarding
statements he allegedly made, and claims that S.T. knew about his private life before anyone else. He
complains that the State attacked the veracity of his defense and dwelled on his character. He
complains that the State went even further using character in closing arguments by reliving some of
the witnesses’ reactions. He argues that the State tried to bolster the credibility of the victims by
referring to them as “heroes.”
Under Texas law, the Texas Court of Criminal Appeals has repeatedly held that the
following areas are proper for argument: (1) summary of the evidence, (2) reasonable deductions
from the evidence, (3) responses to opposing counsel’s argument, and (3) pleas for law
enforcement. Borjan v. State, 787 S.W.2d 53, 55 (Tex. Crim. App. 1990); Allridge v. State, 762
S.W.2d 146, 155 (Tex. Crim. App. 1988). The Fifth Circuit has recognized that these four areas
are acceptable under Texas law. Buxton v. Collins, 925 F.2d 816, 825 (5th Cir.), cert, denied, 498
U.S. 1128 (1991). In the present case, the State’s closing argument fell within the parameters of
a properjury argument. Petitioner has not shown a constitutional violation by the argument.
The Court would add that counsel addressed Petitioner’s claims as follows:
67.

Yes, I did object to the State referring to evidence not introduced in trial during their
final argument, and it was sustained by the Court. That argument had to do with other
students corroborating the testimony of S.T and/or M.P.
25

ISc

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 26 of 28

I did not object to the other arguments complained about in [Petitioner’s] writ.
68.

In my almost 40 years of criminal trial work, I have learned that objections during
closing arguments are:
1.

most likely to be overruled (in the Judge’s discretion), thereby drawing
more attention to that particular argument, and even creating the
impression that the Judge APPROVES of the argument; and

2.

are most likely to irritate the jury, especially if they are routinely
overruled.

As a result, my trial philosophy is not to object unless, in my opinion, the statement REALLY
hurts me. And other than referring to evidence not introduced at trial, I did not believe that any
of the arguments complained about did that much damage. Some of the statements (attacking
[Petitioner’s] veracity, drawing inferences from their failure to call the alleged victims to
testify, etc.) were in direct response to arguments that I had made, and I believed that they were
proper. Others, which might have been closer to the line, still did not, in my opinion, rise to
the level of being objectionable. So as a matter of trial tactics, I remained seated and did not
object.
SHCR at 213-14. The trial court, in turn, found that there was strong evidence of Petitioner ’ s guilt and
that he has not shown that the outcome of the trial would have been different if counsel had objected.
SHCR at 264-65.
It should be noted that Petitioner raised this issue in the context of an ineffective assistance of
counsel claim at the State court level, but the basic finding remains the same. To prevail on a claim
of prosecutorial misconduct in a state habeas corpus proceeding, a petitioner must show that the
prosecutor’s actions were so egregious as to render the trial fundamentally unfair. Donnelly v.
DeChristoforo, 416 U.S. 637, 643 (1974); Cobb v. Wainwright, 609 F.2d 754, 756 (5th Cir.), cert.
denied, 447 U.S. 907 (1980). Petitioner has not made the requisite showing. Moreover, as found by
the State habeas court, he has not shown that the outcome of the trial would have been different.
Stated differently, he has not shown prejudice. Consequently, relief should be denied on Petitioner’s
last ground for relief.
Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district court
does not enjoy an absolute right to appeal.” Buckv. Davis, 137 S. Ct. 759,773 (2017). Instead, under
28 U.S.C. § 2253(c)( 1), he must first obtain a certificate of appealability (“COA”) from a circuitjustice
26

Case: 4:16-cv-00198-ALM-CAN

Document #: 29-1

Date Filed: 12/06/2018

Page 27 of 28

or judge. Id. Although Petitioner has not yet filed a notice of appeal, the court may address whether
he would be entitled to a certificate of appealability. See Alexander v. Johnson, 211 F.3d 895, 898 (5th
Cir. 2000) (A district court may sua sponte rule on a certificate of appealability because “the district
court that denies a petitioner relief is in the best position to determine whether the petitioner has made
a substantial showing of a denial of a constitutional right on the issues before the court. Further
briefing and argument on the very issues the court has just ruled on would be repetitious.”).
A certificate of appealability may issue only if a petitioner has made a substantial showing of
the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To make a substantial showing, the
petitioner need only show that “jurists of reason could disagree with the district court’s resolution of
his constitutional claims or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003). The Supreme
Court recently emphasized that the COA inquiry “is not coextensive with merits analysis” and “should
be decided without ‘full consideration of the factual or legal bases adduced in support of the claims. ’”
Buck, 137 S. Ct. at 773 (quoting Miller-El, 537 U.S. at 336). Moreover, “[wjhen the district court
denied relief on procedural grounds, the petitioner seeking a COA must further show that ‘jurists of
reason would find it debatable whether the district court was correct in its procedural ruling.’”
Rhoades v. Davis, 852 F.3d 422,427 (5th Cir. 2017) (quoting Gonzalez v. Thaler, 565 U.S. 134, MO41 (2012)).
In this case, reasonable jurists could not debate the denial of Petitioner’s § 2254 petition on
substantive or procedural grounds, nor find that the issues presented are adequate to deserve
encouragement to proceed. Accordingly, it is respectfully recommended that the Court find that
Petitioner is not entitled to a certificate of appealability as to his claims.
Recommendation
It is accordingly recommended that the above-styled petition for writ of habeas corpus be
denied and that the case be dismissed with prejudice. It is further recommended that a certificate of
appealability be denied.

27

XIa.

Il

Case: 4:16-cv-00198-ALIV!-CAN

Document#: 29-1

Date Filed: 12/06/2018

Page 28 of 28

Within fourteen (14) days after service of the magistrate judge’s report, any party must serve
and file specific written objections to the findings and recommendations of the magistrate judge. 28
U.S.C. § 636(b)(1)(C). In order to be specific, an objection must identify the specific finding or
recommendation to which objection is made, state the basis for the objection, and specify the place in
the magistrate judge’s report and recommendation where the disputed determination is found. An
objection that merely incorporates by reference or refers to the briefing before the magistrate judge is
not specific.
Failure to file specific, written objections will bar the party from appealing the unobjected-to
factual findings and legal conclusions of the magistrate judge that are accepted by the district court,
except upon grounds of plain error, provided that the party has been served with notice that such
consequences will result from a failure to object. See Douglass v. UnitedServs. Auto. Ass ’n, 79 F.3d
1415, 1417 (5th Cir. 1996) (en banc), superceded by statute on other grounds, 28 U.S.C. § 636(b)(1)
(extending the time to file objections from ten to fourteen days).
SIGNED this 6th day of December, 2018.

Christine A. Nowak
UNITED STATES MAGISTRATE JUDGE

28

Case: 4:16-cv-00198-RAS-CAN

Document#: 37-1

Date Filed: 02/12/2019

Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF TEXAS
SHERMAN DIVISION
JOSEPH PETER GARBARINI, III, #1754849

§

VS.

§

DIRECTOR, TDCJ-CID

§

CIVIL ACTION NO. 4:16cvl98

ORDER OF DISMISSAL
Petitioner Joseph Peter Garbarini, HI, a prisoner confined in the Texas prison system, filed the
above-styled and, numbered petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254. The
case was referred to United States Magistrate Judge Christine A. Nowak, who issued a Report and
Recommendation concluding that the petition should be denied. Both sides have filed objections.
The Report of the Magistrate Judge, which contains her proposed findings of fact and
recommendations for the disposition of such action, has been presented for consideration, and having
made a de novo review of the objections raised by the parties to the Report, the court is of the opinion
that the findings and conclusions of the Magistrate Judge are correct and the objections are without
merit. Therefore, the court hereby adopts the findings and conclusions of the Magistrate Judge as the
findings and conclusions of the court. It is accordingly
ORDERED that the petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254 is
DENIED and the case is DISMISSED with prejudice. A certificate of appealability is DENIED. All
other motions not previously ruled on are hereby DENIED.
SIGNED this the 12th day of February, 2019.

I
RICHARD A. SCHELL
UNITED STATES DISTRICT JUDGE

1*1

Case: 19-40226

Document: 00515235555

Page: 1

Date Filed: 12/13/2019

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-40226

JOSEPH PETER GARBARINI,
Petitioner-Appellant,
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee.

Order

In May 2010, a kindergarten student complained that her teacher,
Joseph Garbarini, had touched her genitals on numerous occasions while
playing a “game” in which he pretended to change her diaper. Days later, a
second student said that Garbarini had repeatedly touched her genitals while
playing a similar “game.”
A jury convicted Garbarini of one count of continuous sexual abuse of a
child and one count of sexual performance by a child. See Tex. Penal Code
§§ 21.02, 43.25. Garbarini lost his direct appeal and was denied state habeas
relief, so he filed a 28 U.S.C. § 2254 petition in federal district court. The
district court denied his petition, and he now asks us to grant him a certificate
of appealability (COA) with respect to seven arguments: (1) a double jeopardy
violation; (2) a jury instruction that permitted a non-unanimous verdict;.
(3) ineffective assistance of counsel based on failure to obtain a student’s

3o^

Case: 19-40226

Document: 00515235555

Page: 2

Date Filed: 12/13/2019

No. 19-40226
attendance records; (4) ineffective assistance of counsel based on failure to
request limiting instructions; (5) improper remarks by the prosecution during
closing argument; (6) improper alteration of a discovery agreement; and (7) the
district court’s application of a presumption of correctness to state court
findings of fact.
To obtain a COA, a prisoner must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “A petitioner satisfies
this standard by demonstrating that jurists of reason could disagree with the
district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to
proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
The exhaustion requirement provides that a state prisoner must “give
the state courts a full and fair opportunity to resolve federal constitutional
claims before those claims are presented to the federal courts.” O’Sullivan v.
Boerckel, 526 U.S. 838, 845 (1999). As the Supreme Court explained:
Because it would be unseemly in our dual system of government
for a federal district court to upset a state court conviction without
an opportunity to the state courts to correct a constitutional
violation, federal courts apply the doctrine of comity, which
teaches that one court should defer action on causes properly
within its jurisdiction until the courts of another sovereignty with
concurrent powers, and already cognizant of the litigation, have
had an opportunity to pass upon the matter.
Rose v. Lundy, 455 U.S. 509, 518 (1982) (quotation omitted). Today, the
exhaustion requirement is codified in 28 U.S.C. § 2254(b)(1). Garbarini failed
to exhaust his double-jeopardy claim because he did not present it to the state
courts in a procedurally proper way. Therefore, relief on that claim is barred
by § 2254(b)(1), and jurists of reason could not debate otherwise. Garbarini also
failed to make the requisite COA showing for his other six issues. As such, his
motions for a COA and for leave to proceed in forma pauperis are DENIED.
2

3U

Case: 19-40226

Document: 00515235555

Page: 3

Date Filed: 12/13/2019

No. 19-40226

ANDREW S. OLDHAM
UNITED STATES CIRCUIT JUDGE

if $£g|9 S

klfej
WS..J

iHpic
A True Copy
Certified order issued Dec 13, 2019

dwti UJ.
Clerk, U.S. Court of Appeals, Fifth Circuit

3

zxc^

Case: 19-40226

Document: 00515329055

Page: 1

Date Filed: 03/02/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-40226

JOSEPH PETER GARBARINI,
Applicant,
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent.

Application for a Certificate of Appealability
from the United States District Court
for the Eastern District of Texas

Before JONES, HIGGINSON, and OLDHAM, Circuit Judges.
PER CURIAM:
A member of this panel previously denied Joseph Garbarini’s application
for a certificate of appealability (“COA”) and motion for leave to proceed in
forma pauperis (“IFP”). Garbarini moved for reconsideration. Garbarini failed
to show, however, that he properly exhausted his double jeopardy claim. See
,. To exhaust the claim, the prisoner must “give state courts
a fair opportunity to act on their claims.” O’Sullivan v. Boerckel, 526 U.S. 838.
844 (1999). That means presenting it in a procedurally proper posture. See,
e.g., Castille v. Peoples, 489 U.S. 346. 351 (1989). “The [exhaustion] rule would

33 a.

Case: 19-40226

Document: 00515329055

Page: 2

Date Filed: 03/02/2020

No. 19-40226
serve no purpose if it could be satisfied by raising one claim in the state courts
and another in the federal courts.” Picard v. Connor, 404 II.S. 270. 276 (1971).
Here, however, Garbarini presented an ineffective assistance of counsel claim
to the state courts; that is different from the double jeopardy claim he presents
to us. The latter is unexhausted.
Even if the double jeopardy claim was exhausted, it would be meritless.
See 28 U.S.C. § 2254(bl(21. Garbarini argues the State is punishing him two
times for one crime. But the record reflects that the State charged Garbarini
for committing two different sexual crimes involving two different children.
The COA application is DENIED and the IFP motion is DENIED as
moot.

3^

Case: 19-40226

Document: 00515329055

Page: 3

Date Filed: 03/02/2020

No. 19-40226
STEPHEN A. HIGGINS ON, concurring in part, dissenting in part:
A Texas jury convicted Joseph Garbarini of one count of continuous
sexual abuse of a child and one count of sexual performance by a child. See Tex.
Penal Code §§ 21.02. 43.25. Garbarini was sentenced to 52 years for the first
offense and 10 years for the second offense. Garbarini v. Texas, No. 05-1200029, 2013 WL 3947154. at *1 (July 29, 2013 Tex. Ct. App.). Garbarini moved
for a certificate of appealability (COA) on seven separate issues and also moved
for leave to proceed IFP. We denied the COA on each of the seven issues
presented. Garbarini v. Davis, No. 19-40226 (5th Cir. Dec. 13, 2019). I would
grant Garbarini’s reconsideration motion only as to his double-jeopardy claim
and grant Garbarini leave to proceed in forma pauperis (IFP) on that claim.
I agree with the magistrate judge and district court judge that
Garbarini’s double-jeopardy claim is not procedurally barred because he
exhausted it before the state habeas court. To exhaust state remedies, the
petitioner must “fairly present!]” the “substance” of his claim to the state
courts, Picard v. Conner, 404 U.S. 270. 275—76 (1971), but the petitioner “need
not spell out each syllable of the claim before the state court to satisfy the
exhaustion requirement.” Whitehead v. Johnson,
1998). Although Garbarini styled his double-jeopardy claim in state court as
an ineffective assistance of counsel claim,1 Garbarini specifically identified the
Double Jeopardy Clause and argued that his conviction on the two counts
above “resulted in multiple punishments for 1 offense.” Throughout, Garbarini
has challenged the imposition of “multiple punishments for 1 offense” and
argued that this punishment “result[s] in ... a double jeopardy violation.”
Indeed, in order to adjudicate Garbarini’s claim, the state habeas court stated

1 Garbarini was proceeding pro se before the state habeas court and filled out his habeas petition on a
form provided by the State of Texas.

35^_

Case: 19-40226

Document: 00515329055

Page: 4

Date Filed: 03/02/2020

No. 19-40226
it was deciding whether there was a “valid legal basis” for a double-jeopardy
claim. Thus, “the state courtQ [had] the opportunity fully to consider federallaw challenges to [its] custodial judgment.” Duncan v. Walker, SE2_ILSi_l£2*
178-79 (2001).
Because Garbarini’s application for a COA on his double-jeopardy claim
is not procedurally barred, I would consider the merits of the application. To
obtain a COA, a petitioner must make “a substantial showing of the denial of *
a constitutional right.”

,. “A petitioner satisfies this

standard by demonstrating that jurists of reason could disagree with the
district court’s resolution of his constitutional claims or that jurists could
conclude the issues presented are adequate to deserve encouragement to
proceed further.” Miller-El v. Cockrell, 537 U.S. 322. 327 (2003). This court
must decide whether to grant a COA “without full consideration of the factual
or legal bases adduced in support of the claims” and without deciding the
merits of the appeal. Buck v. Davis, 137 S. Ct. 759. 773 (2017) (internal
quotation marks and citation omitted).
Because Garbarini has made the requisite plausibility showing for
issuance of a COA with respect to his double-jeopardy claim,2 see Texas Penal
Code S 21.02 (2007); Smallwood v. Johnson, 73 F.3d 1343. 1350 (5th Cir. 1996);
Soliz v. State, 353 S.W.3d 850. 852 (Tex. Crim. App. 2011), I would grant his
reconsideration motion as to that claim, see Miller-El, 537 U.S. at 327. and also
grant Garbarini’s motion for leave to proceed IFP on appeal.

2 The majority asserts the State charged Garbarini with “committing two different sexual crimes
involving two different children.” The majority relies on this assertion to reject Garbarini’s double­
jeopardy claim on the merits. But the record shows otherwise. The State charged Garbarini with
committing one crime against both S.T. and M.P. (continuous sexual abuse of a young child) and one
crime against only S.T. (sexual performance by a child).

3&

